IN THE SUPREME COURT OF THE UNITED STATES

ROMAN-VEGA, ERICK ADRIAN
Petitioner
vs.

No:

21-0310

MERRICK B. GARLAND, ATTORNEY GENERAL
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

BRIAN H. FLETCHER
Acting Solicitor General
Counsel of Record
September 13, 2021
cc:
JASON MOBERLY CARUSO
NEWMEYER DILLION LLP
895 DOVE STREET
FIFTH FLOOR
NEWPORT BEACH, CA 92660
MONICA EAV GLICKEN
PUBLIC LAW CENTER
601 CIVIC CENTER DRIVE WEST
SANTA ANA, CA 92701

